          OFFICE OF INSPECTOR GENERAL


                                  Catalyst for Improving the Environment



Evaluation Report


        Ongoing Management Improvements
        and Further Evaluation Vital to EPA
        Stewardship and Voluntary Programs

        Report Number: 2005-P-00007

        February 17, 2005
Report Contributors:                         Katie Butler
                                             Manju Gupta
                                             Erin Mastrangelo
                                             R. Olga Stein
                                             Thane Thompson




Abbreviations:

EPA              Environmental Protection Agency
ERP              Environmental Results Program
GPRA             Government Performance and Results Act
IAC              Innovation Action Council
LWWC             Lodi-Woodbridge Winegrape Commission
MADEP            Massachusetts Department of Environmental Protection
NGO              Non-Governmental Organization
OCFO             Office of Chief Financial Officer
OECA             Office of Enforcement and Compliance Assurance
OIG              Office of Inspector General
OPEI             Office of Policy, Economics, and Innovation
OPPTS            Office of Prevention, Pesticides, and Toxic Substances
ORD              Office of Research and Development
OSWER            Office of Solid Waste and Emergency Response
OW               Office of Water
TCEQ             Texas Commission on Environmental Quality
                         U.S. Environmental Protection Agency                                          2005-P-00007
                                                                                                    February 17, 2005
                         Office of Inspector General


                         At a Glance

                                                                        Catalyst for Improving the Environment


Why We Did This Review              Ongoing Management Improvements and Further Evaluation
The Office of Inspector General
                                    Vital to EPA Stewardship and Voluntary Programs
initiated this evaluation to
outline and characterize EPA's       What We Found
approach to environmental
stewardship. We specifically        We asked a selected sample of stakeholders to define stewardship, list motivators
wanted to learn how                 and obstacles to participating in stewardship programs, and outline key roles for
stakeholders defined and            EPA to play to encourage and foster participating in environmental stewardship
approached environmental            activities. The definitions and views of the selected stakeholders were generally
stewardship, what role EPA          broader than what EPA has articulated to date, and varied based on their role in
played in promoting and             stewardship programs. Based on these interviews, we determined that EPA needs
fostering stewardship activities,   to identify motivators and barriers to participation, and continue to incorporate
and how effectively stewardship     stakeholder feedback into planning, designing, and implementing stewardship
programs assist EPA in              programs. EPA should also examine what roles it should play in promoting
achieving environmental             stewardship activities.
outcomes.
                                    EPA has created a strategic goal that utilizes stewardship programs to achieve
Background                          environmental outcomes and offer ways for participants to move above and
                                    beyond compliance. The Agency has also developed a plan to improve managing
EPA defined environmental           voluntary programs through better coordination, increased stakeholder
stewardship as "behavior that       interaction, and developing measurement processes. However, EPA still needs to
includes, but also exceeds,         address additional management issues. The Agency has yet to fully implement
required compliance with            internal recommendations to strategically plan, coordinate, and manage its
environmental laws and              voluntary programs, or to develop a process for assessing these programs to
regulations." The programs          determine how they will be integrated into the Agency's mission and its strategic
selected by EPA to accomplish       goals and objectives.
its stewardship goal are only a
subset of a much larger group of    We also found that additional program evaluation needs to be conducted to
voluntary programs. EPA             determine (1) what motivates participation in these types of programs and what
defines voluntary programs as       causes voluntary environmental behavior change to occur, (2) the most efficient
those programs that “motivate       ways to measure the outcomes and impacts of stewardship and voluntary
people to take actions not          programs, and (3) which stewardship and/or voluntary programs are most
required by regulation that         effective in encouraging voluntary behavior change and achieving environmental
benefit the environment.”           results.


For further information,            What We Recommend
contact our Office of
Congressional and Public Liaison
at (202) 566-2391.
                                    We recommend that EPA (1) develop a statement that outlines how voluntary
                                    programs are expected to assist EPA in achieving its overall mission and its
To view the full report, click on   stewardship goals and objectives; and (2) develop criteria, guidance, and an
the following link:                 action plan for assessing how voluntary programs will be included in the next
www.epa.gov/oig/reports/2005/       revision of the Agency’s Strategic Plan.
20050217-2005-P-00007.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                       February 17, 2005


MEMORANDUM


SUBJECT:	      Evaluation Report: Ongoing Management Improvements and Further Evaluation
               Vital to EPA Stewardship and Voluntary Programs.
               Assignment No. 2003-0001451

FROM:	         Jeffrey K. Harris /s/

               Director for Program Evaluation, Cross-Media Issues


TO:	           Susan B. Hazen

               Acting Assistant Administrator for Prevention, Pesticides and Toxic Substances


               Stephanie Daigle
               Acting Associate Administrator for Policy, Economics and Innovation


Attached is our final report regarding EPA’s Stewardship and Voluntary Programs. This report
contains findings regarding EPA’s need to continue management improvements, strategic
implementation, and evaluation of stewardship and voluntary programs. The report also contains
corrective actions the Office of Inspector General (OIG) recommends. This report represents the
opinion of the OIG, and the findings contained in this report do not necessarily represent the
final EPA position. Final determination on matters in this report will be made by EPA managers
in accordance with established procedures. EPA’s Office of Policy, Economics, and Innovation
provided us with the Agency’s consolidated response to our draft report on February 9, 2005.
We included EPA’s consolidated response in its entirety as Appendix D.


Action Required

In accordance with EPA Manual 2750, as the action official, you are required to provide this
office with a written response within 90 days of the final report date. Because several addressees
are identified above, the Agency should identify a lead office to coordinate and consolidate
responses from all identified addressees, and that office should provide a single response to this
final report. The response should address all recommendations. For the corrective actions
planned but not completed by the response date, please describe the actions that are ongoing and
provide a timetable for completion. Where you disagree with a recommendation, please provide
alternative actions for addressing the findings reported. We appreciate the efforts of EPA
officials and staff, as well as external stakeholders, in working with us to develop this report.
For your convenience, this report will be available at www.epa.gov/oig/reports/2005/20050217-
2005-P-00007.pdf.

We appreciate the efforts of EPA officials and staff in working with us to develop this report. If
you or your staff has any questions regarding this report, please contact Thane Thompson at
(513) 487-2361.
                                  Table of Contents

At a Glance



Chapters

     1	       Stewardship Programs Use A Voluntary Approach

              to Address Environmental Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1

              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    1

              Examples of Environmental Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         4

              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             7

              Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      8



     2	       EPA Should Understand Stakeholder Needs To

              Effectively Plan and Implement Stewardship . . . . . . . . . . . . . . . . . . . . . . . . . 9

              Stakeholder Definitions Varied With Stakeholder Roles . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

              Selected Stakeholders Outlined Motivators and Obstacles

                      to Participating in Stewardship Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              Selected Stakeholders Outlined Five Stewardship Roles for EPA . . . . . . . . . . . . . . . . . . 13
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


     3	       EPA Has Improved Voluntary Program Management,

              But Additional Work is Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


              2003 Strategic Plan Revision Elevates Voluntary

                      Programs to a Strategic Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  16

              EPA Working to Improve Voluntary Program Management . . . . . . . . . . . . . . . . . . . . . . . .                                  17

              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   19

              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        20



     4	       Further Program Evaluation Needed to Effectively Manage

              Stewardship and Voluntary Activities . . . . . . . . . . . . . . . . . . . . . . . . . 21

Appendices

  A   Program Information for Selected Examples
      of Voluntary Programs Included in Strategic Goal 5 . . . . . . . . . . . . . . . . . 23


  B   List of EPA Stewardship and Voluntary Programs . . . . . . . . . . . . . . . . . . . 24


  C   List of Selected Stakeholders We Interviewed . . . . . . . . . . . . . . . . . . . . . . 26


  D   Agency Comments to the Draft Report and OIG Evaluation . . . . . . . . . . . 28


  E   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   30

                                   Chapter 1
       Stewardship Programs Use A Voluntary
      Approach to Address Environmental Issues

Purpose

             In its 2003-2008 Strategic Plan, EPA designated Goal 5 as “Compliance and
             Environmental Stewardship.” EPA expects the programs in this goal to improve
             environmental performance through compliance with environmental regulations,
             pollution prevention, and encouraging governments, businesses, and the public to
             participate in environmental stewardship. The OIG is committed to conducting a
             series of evaluations to assess the impact and effectiveness of EPA’s stewardship
             and voluntary programs. In this first report, our objective was to create a
             foundation from which to evaluate designing, planning, and implementing EPA
             stewardship activities. We sought to determine:

             •	     How selected State, industry, and community stakeholders define and
                    approach environmental stewardship, and what role those stakeholders
                    believe EPA should play in promoting and fostering stewardship
                    activities.

             •	     What programs EPA identified as environmental stewardship programs,
                    how EPA selected them, and how effective stewardship programs are in
                    helping EPA achieve environmental outcomes.


Background

             EPA uses a variety of tools in its efforts to improve human health and the
             environment. These tools include compliance and enforcement activities, such as
             inspections, permits, fines, and penalties. EPA has also encouraged compliance
             through technical assistance, incentives, training, and educating stakeholders on
             regulatory requirements. Environmental stewardship activities and practices offer
             an additional approach to environmental protection that achieves results beyond
             what would normally be achieved by compliance activities alone.

             EPA selected a number of programs to accomplish its stewardship goal, and
             organized those programs under Goal 5. The programs in this goal were expected
             to encourage pollution prevention and sustainable practices, reduce regulatory
             barriers, and implement results-based, innovative, and multi-media approaches.
             Table 1.1 below provides six examples of the types of voluntary programs

                                             1
included in Goal 5 and identifies the program office that implements each of these
programs. Several of the programs listed in Table 1.1 either require or
recommend the use of Environmental Management Systems (EMS) to help
participants manage and reduce their overall “environmental footprint.” See
Appendix A for more information regarding these voluntary programs.

Table 1.1 – Six Examples of EPA Voluntary Programs Included in Strategic Goal 5


         Program Name                             Responsible Office


 Design for the Environment


 Green Chemistry                Office of Prevention, Pesticides, and Toxic Substances



 Green Engineering


 Performance Track

                                Office of Policy, Economics, and Innovation
 Sector Strategies


 National Partnership for       Office of Solid Waste and Emergency Response
 Environmental Priorities



EPA defined environmental stewardship as "behavior that includes, but also
exceeds, required compliance with environmental laws and regulations." These
behaviors include voluntarily reducing emissions, and considering environmental
impacts during product design, manufacture, and distribution. In its FY 2003
Annual Report, EPA said that it was working in partnership with State
governments, local communities, and other Federal agencies to integrate
compliance and stewardship activities to address the most significant
environmental and public health problems.

Stewardship Programs Are Anticipated to Generate Substantial
Environmental Benefits

EPA has determined that, in some circumstances, stewardship programs can
achieve positive environmental outcomes. Specific advantages to implementing
stewardship programs include:



                                 2
    •	       reducing releases to the environment,
    •	       reducing the regulated community’s need to manage pollutants,
    •	       avoiding the transfer of pollutants from one regulated media (air, water,
             land) to another, and
    •	       reducing waste and conserving materials for future generations.

    While EPA acknowledged the advantages of stewardship programs, it also
    identified several challenges in defining the scope of the Agency's involvement in
    stewardship. Several EPA managers said that because stewardship activities are
    voluntary, EPA cannot require participation in these types of programs. This is a
    significant change from EPA’s traditional approach as a regulatory agency, and
    the Agency faces challenges regarding how to incorporate environmental
    stewardship activities into existing Agency programs.

    Regional EPA staff also commented that a challenge exists to prioritizing
    stewardship programs because they are focused on a cross-media level, but the
    Agency continues to focus on single-media issues. In addition to the difficulties
    in prioritizing stewardship programs, one Agency manager questioned whether
    EPA is actually increasing participation in stewardship programs, or just signing
    up the same group of people over and over again for different programs. Another
    EPA manager emphasized that EPA does not directly implement stewardship
    activities, but rather provides information, examples, and tools to encourage its
    stakeholders to voluntarily adopt more environmentally beneficial behaviors.

    Stewardship Programs Are a Subset of the Agency’s Voluntary
    Initiatives

    During our evaluation, we discovered that the programs that EPA included in
    Goal 5 are only a small subset of a much larger group of voluntary programs.
    According to an Agency-wide survey completed in December 2003, EPA actually
    manages 75 voluntary programs: 52 of these programs are managed by
    headquarters offices; 23 are managed by EPA Regional offices. See Appendix B
    for a list of the voluntary programs identified in the 2003 survey. EPA also
    informed us that the population of EPA voluntary programs is quite fluid. The
    Agency stated that new voluntary programs are constantly being proposed and
    developed, while other programs are expanded, restructured, or even eliminated if
    EPA determines that they have achieved their goals.

    In 2003-2004, EPA’s Innovation Action Council (IAC)1 conducted an inventory
    of the Agency’s voluntary programs to assess voluntary program management


1
    Established in the Fall of 1996, the Innovation Action Council (IAC) is composed of EPA's top career
    executives, and has overall responsibility for formulating and advancing the Agency's innovation agenda.
    The mission of the IAC is to develop and promote innovative approaches to addressing increasingly complex
    environmental challenges.

                                              3
           processes, and work on identifying a definition for all of EPA’s voluntary
           programs. The IAC stated that establishing a firm definition for voluntary
           programs was challenging, but after numerous attempts, it settled on the following
           definition: “EPA voluntary programs motivate people and organizations to take
           actions not required by regulation that benefit the environment.” Specifically,
           the IAC said that voluntary programs:

           •	     use market forces to provide economic benefits to participants;
           •	     utilize recognition, information, and other incentives; and/or
           •	     encourage beyond-compliance, environmentally protective actions, or
                  provide an alternative way to achieve a regulatory/statutory objective.

           The largest number of voluntary programs (21) are located in the Office of Air
           and Radiation. These range in focus from voluntary emission reductions, to the
           Energy Star program, to informing communities about sun exposure and sunburn
           reduction. EPA’s Office of Water runs eight programs, offering such voluntary
           activities as community water quality monitoring, adopting a local watershed, and
           helping specific customers to reduce their environmental impacts. The Office of
           Solid Waste and Emergency Response implements six programs, including a
           national waste reduction partnership, a used carpet recovery initiative, and a
           program to help companies recycle old electronics and computers.

           EPA’s other program offices are also actively involved in implementing voluntary
           programs. In addition to running the programs listed in Table 1.1, the Office of
           Prevention, Pesticides, and Toxic Substances operates a number of voluntary
           programs to help industries identify environmentally responsible supply chains,
           assist hospitals in reducing their hazardous waste, and help farmers reduce the
           impacts of the pesticides they use. Besides running the Performance Track and
           Sector Strategies programs, the Office of Policy, Economics, and Innovation
           operates voluntary programs to help communities manage the environmental
           impacts of urban sprawl (Smart Growth program). The Office of Research and
           Development conducts a voluntary technology verification program.


Examples of State Environmental Stewardship

           The following examples are of State environmental stewardship activities that are
           not generally required by regulations, and demonstrate positive outcomes from
           stakeholder participation. These specific examples range from innovative
           compliance assistance efforts to international cross-border partnerships. They
           demonstrate a variety of technical approaches to stewardship, various levels of
           stakeholder involvement, and innovative ways to achieve environmental results.




                                            4
    Massachusetts Environmental Results Program

    The Massachusetts Department of Environmental Protection (MADEP) operates a
    small business compliance assistance program called the Environmental Results
    Program (ERP). According to ERP managers, the program uses outreach and
    education, self-assessment, and self-certification activities to achieve
    environmental results and “enhance and measure environmental performance.”
    MADEP initially applied ERP to three industry sectors (dry cleaners, photo
    processors, and printers) in 1997. More recently MADEP has applied ERP tools
    to four other sectors, including small boilers, industrial wastewater holding tanks,
    dentists who use mercury, and Stage II vapor recovery at refueling facilities.
    Twelve other States also are applying ERP to additional small business sectors
    beyond those targeted in Massachusetts.

    The MADEP found that if small businesses clearly understand the requirements
    and regulations governing their industries, then they are more willing to comply.
    Regulations are often confusing to small business owners and operators. As a
    result, the ERP conducts workshops and develops industry-specific workbooks
    that are specifically tailored to each industry’s processes and presented in
    simplified language. Although ERP is not a voluntary program, Massachusetts
    found that if companies are provided with assistance to comply with regulatory
    requirements, they are also more likely to voluntarily go beyond compliance.

    The ERP continues to help MADEP achieve environmental results. According to
    MADEP, for printing press cleaning solution spills, self-reported performance
    increased from 77 percent at baseline in 1998 to 85 percent in 1999. Applied to
    the entire State printing industry, this performance improvement was equivalent
    to 4.0 tons VOC emission reduction. For dry cleaning perchlorate leak reduction,
    self-reported performance increased from 33 percent at baseline in 1997 to 66
    percent in 2000. Based on average percent use per facility, and applied to the
    entire State dry cleaning industry, this performance improvement is equivalent to
    a total of a 22.5 ton reduction of perchlorate emissions.2

    Texas Border Pollution Prevention Initiative

    The Texas Commission on Environmental Quality (TCEQ) operates voluntary
    programs that work with the numerous United States-, Canadian-, and Japanese-
    owned facilities located within 62.5 miles (100 km) of each side of the United
    States-Mexico border. The Border Pollution Prevention Initiative began working
    with the facilities located in Mexico, called "maquiladora," in 1994. The program
    staff developed a 5-year plan, which set goals for pollution reduction, energy and
    water conservation, and environmental management training.


2
    This information was provided by MADEP, and OIG has not independently verified its accuracy.

                                             5
    TCEQ uses a two-prong approach to achieve results from this initiative. First,
    they conduct training programs for Mexican Federal and State governments,
    universities, and other institutions in developing pollution prevention and waste
    minimization capability. Second, TCEQ conducts Site Assistance Visits to
    survey and analyze the participating maquiladora facility’s waste streams and
    process operations, water and energy conservation, and current pollution
    prevention activities. The Site Assistance Visits team makes recommendations on
    pollution prevention and resource conservation activities that could be undertaken
    by the facility. The report is sent to the facility for review and approval in order
    to ensure the confidentiality of proprietary information.

    TCEQ staff said that varying levels of participation occurred with the
    maquiladora companies--much of the success depended on the interests of the site
    management. For example, when the management was non-Mexican, the
    priorities of protecting the environment were sometimes lower than if the
    management was Mexican. TCEQ indicated that this situation arose because the
    Mexican managers lived there and were directly affected by the day-to-day
    management decisions that were made at the facility.

    TCEQ collected data and measured outcomes from 17 participating Maquiladora
    facilities in 2003. Together, those 17 facilities had:

    •	       reduced hazardous waste generation by more than 14,000 tons,
    •	       reduced non-hazardous waste generation by nearly 83,000 tons,
    •	       reduced volatile organic compound (VOC) emissions by 90,078 pounds,
    •	       conserved approximately 421 million gallons of water,
    •	       conserved about 446 million Kilowatt hours of electricity, and
    •	       saved partner U.S. facilities over $85 million in avoided material and
             disposal costs.3

    Lodi-Woodbridge Winegrape Commission

    The Lodi-Woodbridge Winegrape Commission (LWWC) in Lodi, California, a
    partner in EPA’s Pesticide Environmental Stewardship Program, achieved cost
    savings and decreased environmental impacts of wine grape growing, through an
    effort that was largely unregulated. In partnership with independent research
    organizations, and through a combination of private, State, and Federal grants
    (including $300,000 from EPA), the LWWC developed a self-assessment
    workbook of sustainable winegrape growing practices for its members. This
    workbook and the practices it included went well beyond compliance with State
    and Federal environmental regulations.



3
    This information was provided by TCEQ, and OIG has not independently verified its accuracy.

                                              6
          LWWC's practices included weekly vineyard monitoring, using reduced-risk
          chemicals, and using compost or other organic fertilizer materials. Participants
          also reduced or eliminated the use of pre-emergent herbicides, implemented drip
          irrigation to minimize water use, and identified economic thresholds for
          determining the frequency and volume of pesticide application. After 12 years of
          implementation, over 300 winegrape growers participated in LWWC program
          workshops and planning activities. Participating growers decreased the amount
          of insecticides used per acre, reduced insecticide costs, and reduced using
          organo-phosphate pesticides to almost zero.


Scope and Methodology

          We conducted our evaluation of EPA's stewardship and voluntary programs
          between September 2003 and October 2004. We performed our evaluation in
          accordance with Government Auditing Standards issued by the Comptroller
          General of the United States. To answer our objectives, we conducted a general
          literature review regarding available definitions and perceptions of the overall
          concept of “environmental stewardship, and reviewed and analyzed EPA’s Fiscal
          Year (FY) 2003-2008 Strategic Plan (Strategic Plan), FY 2005 Annual Plan, and
          FY 2005 Annual Budget documents.

          We visited California, Massachusetts, and Texas to conduct interviews with
          selected stewardship stakeholders. We decided to visit these States based in part
          on guidance and suggestions from EPA program office staff. These States were
          selected using a judgmental sample, and were States EPA identified as already
          implementing stewardship activities. We interviewed staff from environmental
          agencies at the Federal, State, and municipal levels. We also spoke with non-
          profit organizations, corporations, and industry associations who participated in
          environmental stewardship activities. During our interviews with these
          stakeholders, we asked them to provide a definition of environmental
          stewardship, list motivators and obstacles to participating in stewardship
          programs, and outline what role EPA should play in fostering or supporting
          environmental stewardship. See Appendix C for a list of the stakeholders we
          interviewed.

          We also interviewed EPA senior management and program staff in the Office of
          Chief Financial Officer (OCFO), the Office of Prevention, Pesticides and Toxic
          Substances (OPPTS), and the Office of Policy, Economics and Innovation
          (OPEI). During our interviews with EPA staff, we were informed that the
          programs included in the Compliance and Environmental Stewardship Goal (Goal
          5) of EPA’s Strategic Plan were a subset of a much larger group of the Agency's
          voluntary programs. To effectively evaluate the relationship between the
          programs in Goal 5 and the larger set of voluntary programs, it became necessary
          to expand the scope of this evaluation.

                                           7
Results In Brief

             After interviewing a selected sample of stakeholders, we determined that EPA
             needs to identify motivators and barriers to participation, and continue to
             incorporate stakeholder feedback into planning, designing, and implementing
             stewardship programs. We also determined that EPA needs to examine what role
             it should play in promoting stewardship activities. We found that EPA has
             created a stewardship goal that utilizes selected voluntary programs, and has
             developed a plan to improve management of its entire group of voluntary
             programs. However, EPA still needs to fully implement internal
             recommendations to strategically plan, coordinate, and manage its voluntary
             programs, and develop a process for assessing these programs to determine how
             they will be integrated into the Agency's mission and its strategic goals and
             objectives.

             We recommend that EPA develop a statement that outlines how voluntary
             programs are expected to assist EPA in achieving its overall mission and
             stewardship goals. We also recommend that EPA develop criteria and guidance
             for assessing how it will integrate voluntary programs into its Strategic Plan.

             We noted areas where additional program evaluation needs to be conducted.
             Specifically, more evaluation should be conducted to determine (1) what
             motivates participation in these types of programs and what causes voluntary
             environmental behavior change to occur, (2) the most efficient ways to measure
             the outcomes and impacts of stewardship and voluntary programs, and (3) which
             stewardship and/or voluntary programs are more effective in encouraging
             voluntary behavior change and achieving environmental results.

             The Agency addressed and generally agreed with our findings and
             recommendations. EPA’s comments to our draft report are located in Appendix
             D. The Agency also provided specific comments on the draft which were
             addressed as appropriate in the final report. The Agency also informed the OIG
             that, under the leadership of Acting Administrator Johnson, EPA is beginning a
             new effort to determine how to best encourage environmental stewardship.




                                             8
                                       Chapter 2
     EPA Should Understand Stakeholder Needs To
      Effectively Plan and Implement Stewardship

            We asked a selected sample of stakeholders to define stewardship, list motivators
            and obstacles to participating in stewardship programs, and outline key roles for
            EPA to play to encourage and foster participation in environmental stewardship
            activities. Though our sample did not represent all stewardship participants, our
            overall results were similar to an internal assessment that EPA conducted.4 The
            definitions and views of our selected stakeholders were generally broader than
            EPA’s, and varied based on their role in stewardship programs. To better meet
            the needs of its stakeholders, EPA should identify motivators and barriers to
            participation, and continue to incorporate stakeholder feedback into planning,
            designing, and implementing stewardship programs. EPA also needs to examine
            what roles it should play in promoting stewardship activities.


Stewardship Definitions Varied with Stakeholder Roles

            We found that definitions of stewardship varied among the stakeholders we
            interviewed, but that these definitions could be grouped into three general
            categories based on the role of the respondent. These categories represent the
            industry perspective, the non-profit perspective, and the State and local
            government perspective. See Appendix C for a list of stakeholders interviewed.

            The industry and industry association stakeholders we met with approached
            stewardship from a manufacturing standpoint. Their definitions of stewardship
            were usually correlated to product design, impact, and environmental cost. One
            stakeholder referred to the importance of maintaining an economic balance,
            saying that stewardship is achieving compliance without significant economic
            impact on the regulated community. Another indicated that stewardship was
            maximizing returns for the minimum expense of resources. An industry
            representative said that stewardship was a partnership between his company and
            their supply base to improve the products that come in as raw materials. He
            indicated that these products were utilized throughout the life of the production
            process, and that his company uses “sustainable cost-benefit perspectives” to
            select products that have overall environmental and monetary savings. For


      4
            Regarding EPA’s 2003-2004 Innovation Action Council (IAC) inventory and assessment of voluntary
            program management, as discussed in Chapter 3.

                                                     9
    example, he is generally willing to purchase a product that is initially more
    expensive, but saves more energy throughout its life-span.

    Generally, the non-profit organizations we interviewed believed that stewardship
    represented a concept, or guiding principle, by which to achieve environmental
    results. Their definitions incorporated environmental health, economic
    prosperity, and social stability as factors to consider when implementing
    programs and creating consumer products. One stakeholder referred to the phrase
    "quality of life" to describe environmental stewardship. As an example, she said
    effective public transportation services can reduce traffic gridlock, clean the air,
    and provide other benefits to communities. Another referred to stewardship
    participation as the desire to "do the right thing.” One interviewee believed that
    environmentally responsible behavior occurred at two levels: (1) shaping public
    policy by requiring results and measuring resource impacts, and (2) making
    personal decisions that were responsible to the environment.

    State and local government officials mentioned many of the same concepts as
    their stakeholders when defining stewardship. These included taking a proactive
    versus reactive approach to environmental issues, and looking at outputs and
    environmental results for effectiveness of programs. They also viewed personal
    actions and behaviors, social responsibility, land stewardship, and caring for
    future generations as important components of stewardship. Others we
    interviewed defined stewardship in relation to sustainability, saying that
    stewardship was a way to get to sustainability.5

    Stakeholders in industry, non-profit, and government often used three similar
    categories to define attitudes and behaviors of the regulated community: leaders
    (early adopters), followers, and laggards. They characterized environmental
    leaders, or early adopters, as companies that readily adopt new ideas and
    behaviors or voluntarily go beyond compliance. Followers were described as
    those who take a ‘wait and see’ approach, generally complying with the law or
    meeting minimum standards, but going no further. Laggards were described as
    the group that usually need enforcement and compliance services to bring them
    into compliance with regulatory requirements. Interviewees felt that
    environmental stewardship behaviors are those that are usually chosen by the
    leaders.

    EPA personnel we interviewed had similar views and definitions as the State and
    local government representatives. They addressed the importance of land
    stewardship, and the ownership of environmental performance. They also

5
    Stakeholders frequently mentioned the term "sustainability" when defining stewardship. Sustainability was
    generally described as making decisions that balanced economic profitability, social equity, and environmental
    protection. Sustainability was viewed as a broader, more encompassing idea. However they believed that
    environmental stewardship behavior served as a core component of the larger concept of sustainability.

                                                 10
            referred to the phrase of “doing the right thing” as a reason for engaging in
            stewardship activities.


Selected Stakeholders Outlined Motivators and Obstacles
to Participating in Stewardship Activities

            Stewardship program participants that we met with undertook stewardship
            activities for reasons ranging from cost savings to personal ethics. We asked
            these participants to discuss why they chose to adopt some environmental
            stewardship practices (motivators) and outline what issues continued to limit their
            participation (obstacles).

            The selected industry representatives explained that several factors influence their
            decisions to participate in stewardship activities. These include whether:

            •	     consumers, clients, and investors that hold a substantial market share in
                   the company require socially responsible behavior;
            •	     leaders in their field are also implementing stewardship programs,
                   adopting a particular technology or best practice, or to simply “keep up”
                   with their competitors;
            •	     cost savings serve as an incentive for participating; and
            •	     the company has a champion and a supportive corporate management
                   culture to encourage participating in the programs.

            For the non-profit organizations that we interviewed, recognition and financial
            assistance were common motivators. Specifically, the motivators for this group
            and the industries that they work with are:

            •	     grants and financial assistance,
            •	     recognition they received from both government and the public,
            •	     choosing to "do the right thing for the right reasons,” or
            •	     as a direct response to environmental strains upon their community or a
                   local ecosystem.

            State and local governments typically operate stewardship programs in
            partnership with EPA headquarters or Regional offices to encourage industry and
            non-profits to participate. They indicated that these stewardship program
            participants are usually motivated by

            •      	grants,
            •	     recognition and rewards, and
            •	     a strong organizational leadership that wants to improve environmental
                    results.

                                             11
The selected stakeholders in each category said that obstacles deterred them from
getting involved in stewardship efforts. These included:

•	        negative financial effects, or increased costs for participation;
•	        fear that if a company was able to reduce pollution beyond regulatory
          requirements, then the State or EPA would make regulations more
          stringent; and,
•	        lack of flexibility, or a “top-down” ethic that prevents implementing new
          practices.

Table 2.1 below summarizes motivators and obstacles identified by the
stakeholders that we interviewed:

Table 2.1:	      Motivators and Obstacles to Stewardship Participation Cited by
                 Selected Stakeholders Interviewed by the OIG


                                                                      State and
               Motivators                 Industry     Non-Profit       Local
                                                                     Government

 Avoiding Negative Publicity                 T             T              T
 Cost Savings                                T             T              T
 Keeping up with Leaders                     T             T              T
 Consumer Demands                            T             T
 Grants                                      T             T
 Recognition and/or Rewards                  T             T
 Strong Organizational Leadership                          T              T
 Avoiding Legal Threats                      T
 "Doing the Right Thing"                                   T

                                                                      State and
                Barriers                  Industry     Non-Profit       Local
                                                                     Government

 Financial Impacts                           T             T
 Voluntary Standards Become                  T             T
 Regulatory Requirements

 Lack of Program Flexibility                                              T




                                    12
Selected Stakeholders Outlined Five Stewardship Roles for EPA

            Stakeholders we spoke with saw a variety of roles for EPA to play in continuing
            to promote and foster stewardship. Many of them are similar to the roles EPA
            described for itself in staff interviews. The following is a list of the five major
            roles most frequently suggested by interviewees (not in order of priority):

            1.	    Be a Model for Stewardship Behavior: EPA should use its own policies
                   and practices to model environmental stewardship for others, including
                   "leading by example," modeling stewardship behavior, internally
                   implementing environmental purchasing and environmental management
                   systems (EMS), and rewarding employees who think creatively. One
                   interviewee suggested that EPA promote green government operations, as
                   well as green purchasing, because the Agency has tremendous purchasing
                   power.

            2.	    Provide Technical Expertise to Stewardship Participants: EPA can
                   provide technical assistance, help create measures, and develop
                   appropriate regulations and procedures. EPA can also develop
                   self-assessment tools that potential participants can use to determine their
                   environmental impacts before a project begins, so they can see how they
                   might apply a stewardship approach. One stakeholder suggested that EPA
                   can provide guidance by setting standards for green design and instituting
                   labeling requirements. Another stated that design standards could ensure
                   the producer’s responsibility for the entire life span of a product.

            3.	    Offer Rewards and Incentives to Participate in Stewardship Activities:
                   EPA can offer rewards and recognition for participation in stewardship
                   programs. The Agency can encourage creative problem-solving by
                   promoting creativity within the regulated community, and offering
                   incentives and developing policies that encourage participation in
                   stewardship. These incentives could include monetary rewards for
                   developing new stewardship techniques, public recognition, regulatory
                   flexibility, allowing for longer times between inspections, or simplifying
                   permitting processes. One interviewee said that EPA could create a
                   challenge to companies and offer a $500,000 reward and ceremony for
                   meeting the challenge. An EPA employee added that when the Agency
                   works with and identifies champions of a program, it demonstrates that
                   there can be “respectful” partnerships between EPA and the regulated
                   community.




                                             13
             4.	    Identify Leaders To Serve as Stewardship Champions: EPA should
                    use environmental leaders to encourage competition and provide direction.
                    These activities could involve cataloguing the behaviors of an effective
                    company and fostering those behaviors in others. EPA Regional staff also
                    agreed that having an advocate or champion can really strengthen the
                    stewardship message.

             5.	    Focus on Stewardship Outcomes and Develop Measurement Processes:
                    EPA should focus on developing techniques for measuring results, and
                    should focus stewardship efforts on identifying measures that verified
                    achievement of specific outcomes. Some suggestions for improved
                    performance measurement were to:

                    a.	     Start with a system or program that has been effective, and
                            replicate a national program to that standard.
                    b.	     Identify barriers through conversations with stakeholders, before
                            implementing a program.
                    c.	     Conduct environmental evaluations of products, so that consumers
                            can make informed choices based on the environmental costs and
                            benefits of the product.
                    d.	     Improve EPA management of stewardship programs, including
                            better integration of stewardship activities, and creating public
                            policy to encourage more involvement.

             In addition to the stewardship roles outlined above, many of the stakeholders we
             interviewed mentioned the need for EPA to maintain a strong regulatory and
             enforcement presence. They believed that EPA needed to demonstrate its ability
             to encourage participation in voluntary programs, while continuing to be a
             credible deterrent for potential violators. However, some of the selected industry
             groups cautioned that EPA needs to be careful when addressing regulatory issues
             with stewardship program participants. These stakeholders said they would be
             less interested in continuing to participate if EPA attempted to use their
             voluntarily reduced pollution levels to set new regulatory thresholds.


Conclusion

             The stakeholders we interviewed believe benefits exist to implementing
             environmental stewardship programs, but obstacles continue to prevent some
             industries and organizations from fully participating in these types of activities.
             These stakeholders outlined roles that EPA should play in fostering and
             facilitating stewardship, and provided definitions broader in scope and more
             diverse than that of EPA. EPA should continue to engage in stakeholder input
             and feedback processes to fully understand the diversity of participant definitions,

                                              14
motivations, and obstacles, and continue to refine the roles EPA is expected to
play in fostering stewardship behavior. Without addressing the needs of
stakeholders, the Agency may not be able to effectively plan, design, or
implement stewardship programs that encourage the highest level of participation.




                                15
                                       Chapter 3
           EPA Has Improved Voluntary Program
          Management, But Additional Work Needed

            EPA has created a strategic goal that utilizes stewardship programs to achieve
            environmental outcomes and offer ways for participants to move above and
            beyond compliance. The Agency has also developed a plan to improve managing
            voluntary programs through better coordination, increased stakeholder
            interaction, and developing measurement processes. While EPA is working to
            improve its approach to stewardship and voluntary programs, issues still need to
            be addressed. The Agency has yet to fully implement internal recommendations
            to strategically plan, coordinate, and manage its voluntary programs, or
            implement a process for incorporating these programs into the Agency's mission
            and its strategic goals and objectives.


2003 Strategic Plan Revision Elevates Voluntary Programs to a Strategic Level

            In its FY 2003-2008 Strategic Plan, EPA designated Strategic Goal 5 as
            "Compliance and Environmental Stewardship." EPA selected a number of
            voluntary programs to address stewardship, and organized those programs under
            Goal 5.6 Agency planning staff said that including these programs into Goal 5
            marked the first time that EPA had identified voluntary programs that could
            achieve Agency-level strategic targets. However, EPA officials said that the
            Agency had not developed a "grand plan" for defining or implementing
            environmental stewardship, so no formal process was in place for including some
            programs in Goal 5 while excluding others. The strategic planning staff had
            requested program managers to integrate activities to address strategic targets, but
            coordinating this planning process between the impacted program offices proved
            difficult. One of the stewardship program managers explained that EPA "didn't
            spend a year debating definitions of what was or wasn't stewardship", but went
            out and started working to encourage stakeholders to participate in these
            programs.

            EPA planning staff said upper managers made the final decision regarding which
            programs would be included in Goal 5 and then asked the program offices to
            make their programs fit under the revised goal structure. Program staff also told
            us that the change in the strategic architecture had not significantly affected EPA's


      6
                   In its 2003 Strategic Plan revision, EPA reduced its number of Strategic Goals from 10 to 5.

                                                    16
           organizational or management processes. While we recognize that including
           these programs was the first time the Agency recognized the importance of
           voluntary programs at the strategic target level, good management principles
           dictate that a more structured process could lead to increased customer
           participation, more effective program implementation, and improved program
           results. The Agency needs to determine whether its Goal 5 management
           strategies and planning process will lead to these results. A recent assessment of
           EPA's voluntary programs management addressed and remedied some of these
           concerns.


EPA Working To Improve Voluntary Program Management

           In 2003-2004, EPA’s Innovation Action Council (IAC) assessed EPA’s voluntary
           program management processes. The IAC concluded that EPA needed to address
           customer needs and improve stakeholder feedback and communication, as well as
           improve program coordination to prevent initiative fatigue among participants.
           The IAC also determined that enormous variation occurred among EPA’s
           voluntary programs, along with a lack of consensus from Agency management
           regarding these programs’ roles and value in EPA’s mission. As a result, the IAC
           recommended that EPA improve coordination among programs offices, improve
           measurement processes, and improve strategic management by incorporating
           these programs into the Agency’s mission, goals, and objectives.

           During its assessment, the IAC conducted a number of informal discussions to
           obtain stakeholder opinions in four key areas: (1) value of incentives, (2)
           interactions with EPA, (3) how well stakeholders recognized the different
           “brands” of Agency voluntary programs, and (4) strategic issues. Participants
           included 18 different industrial or professional service companies, 14 EPA
           headquarters and Regional offices; five industry associations, and four States.
           The IAC also assessed voluntary program design and effectiveness, program
           coordination, and measurement. Similar to stakeholders interviewed by the OIG,
           the stakeholders that participated in the IAC assessment felt that voluntary
           programs were a good way to do business. The IAC stakeholder participants
           stated that voluntary programs can:

           •      serve as a showcase for good corporate citizenship,
           •      foster innovations in technology,
           •      create a better communication pathway to EPA,
           •      provide useful technical information, foster networking, and,
           •      contribute to advances in environmental research.

           The stakeholders the IAC interviewed also believed that EPA should implement
           its voluntary programs more strategically. They indicated that too many

                                            17
    voluntary programs provide soft benefits, are uncoordinated and time intensive, or
    are composed of pilots which do not lead to policy changes. These stakeholders
    wanted smoother, simpler interactions with fewer overall transactions or
    duplication of effort. They wanted to see greater consistency in reporting and
    participation requirements, which would enhance the value of “beyond-
    compliance” actions. They also indicated that real cost and effort is required to
    participate in voluntary programs, so they needed to receive tangible benefits to
    justify their participation.

    During its voluntary program assessment, EPA also met with several researchers
    to get outside perspectives on its voluntary programs. These researchers stated
    that if programs are designed and conducted in different ways, the public can
    often become confused as to the value or importance of these numerous programs.
    The researchers indicated that EPA may not be effectively “signaling” the overall
    importance of voluntary programs to the public. EPA concluded that it needed to
    overcome challenges regarding their approach to program integration. Often,
    multiple programs were pursuing the same customers. This situation created
    confusion and “initiative fatigue” for participants, and potentially diluted the
    value of Agency recognition and other incentives.

    To better manage its voluntary programs, the IAC recommended that EPA
    should:

    •	        Improve coordination between its voluntary programs, e.g., improve
              support services, share information on best practices, and help external
              users to access, understand, and participate in EPA voluntary programs.

    •	        Enhance the accountability of voluntary programs, e.g., develop better
              measures, improve brand management and program design, and develop
              more consistent program guidelines.

    •	        Use strategic management processes to assure that voluntary programs
              target priority environmental needs, and are designed to be analytically
              sound, cost effective, and valuable to external participants, e.g.,
              incorporating voluntary programs in the Agency's strategic mission, goals,
              and objectives.

    Many of these recommendations are consistent with good management
    principles.7 We believe EPA needs to improve coordination, enhance
    accountability, and outline a mission and expectations for how voluntary
    programs will assist the Agency in achieving its overall goals and objectives.


7
    Effective leadership and strategic management criteria outlined in the Office of Inspector General’s
    Assessing Organizational Systems OIG Directive OA-5, December 30, 2004.

                                               18
             To begin implementing these recommendations, the Deputy Administrator issued
             an April 21, 2004, memorandum outlining changes for managing EPA voluntary
             programs. This memo included developing a support network for voluntary
             program managers, a set of guidelines for program design, brand management,
             and measurement, and an Agency-wide notification process for new voluntary
             programs. The Office of Policy, Economics, and Innovation was designated as
             the lead office for managing this new Agency initiative.

             The Deputy Administrator continued to advance this process by issuing a June 28,
             2004, Charter for Coordinating and Managing EPA’s Voluntary Programs. This
             charter formalized developing the voluntary program network, created a voluntary
             programs workgroup (composed of senior staff from each Program Office and
             Region), and identified the IAC as the body responsible for the oversight of
             voluntary program management. This charter also required that annual reports be
             issued to the Deputy Administrator so that she/he could determine if any new
             policy directions or additional management improvements were needed. The
             actions included in this Charter demonstrate initial implementation of the IAC’s
             recommended management improvements, but EPA has yet to adopt the IAC’s
             recommendation to incorporate voluntary programs into the Agency’s strategic
             planning process.


Conclusion

             EPA’s decision to include stewardship programs into its 2003-2008 Strategic Plan
             was an important first step towards acknowledging the importance of voluntary
             programs to the Agency’s mission, goals, and objectives. The Agency’s internal
             assessment of managing these programs created efforts to improve program
             coordination, gather more stakeholder feedback, and develop program
             measurements. The Deputy Administrator began implementing the recommended
             changes through the developing a policy memorandum and a voluntary program
             charter. However, EPA still needs to implement the IAC’s recommendations to
             strategically plan, coordinate, and manage its entire voluntary program effort, and
             to develop a process for incorporating voluntary programs into the Agency's
             mission and its strategic goals and objectives.




                                             19
Recommendations

          In order to continue improving the management and implementation of EPA’s
          stewardship and voluntary programs, we recommend that the Acting Assistant
          Administrator for Prevention, Pesticides and Toxic Substances and the Acting
          Associate Administrator for Policy, Economics and Innovation, address the
          following:

          3-1	      Develop a statement that outlines how voluntary programs are expected to
                    assist EPA in achieving its overall mission and its stewardship goals and
                    objectives.

          3-2	      Develop criteria, guidance, and an action plan for assessing how voluntary
                    programs will be included in the next revision of the Agency’s Strategic
                    Plan.8




     8
          As required by the Government Performance and Results Act (GPRA), each Federal agency must revise its
          Strategic Plan every 3 years, beginning in 2000. Therefore, EPA’s next strategic plan revision is required to
          be conducted in 2006.

                                                     20
                                   Chapter 4
Further Evaluation Needed To Effectively Manage
      Stewardship and Voluntary Activities

      By 2008, EPA expects that its stewardship programs will reduce billions of
      pounds of pollution and conserve billions of British Thermal Units (BTUs) of
      energy.9 These programs are also expected to help participants save millions of
      gallons of water and reduce their operating expenditures by nearly $400 million.10
      To effectively plan and implement stewardship programs, EPA must incorporate
      customer-driven goals into well-defined strategies, and understand how
      effectively these programs achieve environmental results.

      EPA should also determine how to measure the outcomes of stewardship
      activities so it is able to verify that it is achieving its goals. EPA needs to show
      that the programs it selects to meet its goal are more effective in achieving
      environmental results than other programs it runs. As we discussed in Chapter 2,
      the selected stakeholders we interviewed believed that EPA should identify and
      strengthen the motivators that encourage people to participate in stewardship
      activities, and reduce obstacles to participation. EPA will not be able to achieve
      environmental outcomes if it is unable to obtain adequate participation in
      environmental stewardship activities. To address this issue, EPA should find out
      how to measure the outputs that encourage these behaviors.

      EPA also needs to correctly measure the environmental benefits of these
      activities. The Agency can begin to address these needs by working to quantify
      how voluntary behavior change programs can assist EPA improving
      environmental and human health protection. The Agency recognizes that
      measuring environmental outcomes from voluntary programs includes its own set
      of challenges. Currently, only some voluntary programs require participants to
      commit to reporting outcomes from their activities. EPA expects these
      participants to provide annual reports with performance information, but each
      year some do not turn in reports, leaving the Agency without adequate data to
      assess the efficacy of the program.




 9
      EPA’s 2003-2008 Strategic Plan, page 115.
 10
      Ibid.

                                              21
The participants have complained that tracking and reporting is a burden to their
companies. This sentiment is a common concern, and leaves EPA with the
following measurement challenges:

•	     Participants must voluntarily agree to supply performance information.
•	     Program implementation differs from participant to participant, so data
       collection may not be consistent among participants.
•	     Results vary by participant, making quantifying overall results a
       challenge.
•	     EPA cannot yet track some environmental stewardship program outcomes,
       though it expects to develop these processes by 2008.

If EPA is unable to overcome these measurement challenges, it will not be able to
determine program outcomes. Further evaluations of EPA’s stewardship and
voluntary programs are necessary to assist the Agency in tracking and measuring
these efforts. As a result, the OIG plans to continue evaluating EPA’s
stewardship and voluntary programs to determine:

1.	    What motivates participation in stewardship and voluntary programs, and
       what causes voluntary environmental behavior change to occur.

2.	    The most efficient way to measure the outcomes and impacts of voluntary
       programs.

3.	    Which EPA stewardship and/or voluntary programs are more effective in
       encouraging voluntary behavior change and achieving environmental
       results.




                                22
                                                                                                                         Appendix A


Program Information for Selected Voluntary Programs
            Included in Strategic Goal 5

 Program Name                       Program Goal                               Participants                    Year of Operation
Design for the               To facilitate the identification,     Partnering with 8 industry sectors.        12 Years
Environment                  adoption, and innovation of
                             clean products, processes,
                             technologies, and
                             management systems.
Green Chemistry              To promote environmentally            Include industry, academia,                12 Years
                             benign design of chemical             government, trade organizations,
                             products and processes.               scientific societies, national labs, and
                                                                   research centers.
Green Engineering            To design, commercialize, and         Primary participants are from              5 Years
                             use processes and products,           academia.
                             which are feasible and
                             economical while minimizing
                             1) generating pollution at the
                             source and 2) risking human
                             health and the environment.
Performance Track            To recognize and encourage            350 industry and non-industry              4 Years
                             top environmental                     facilities.
                             performance among private
                             and public facilities, which go
                             beyond compliance with
                             regulatory requirements to
                             achieve environmental
                             excellence.
Sector Strategies            To work with priority industry        Trade associations, State agencies,        10 Years
                             and service sectors to promote        and others. The 12 participating
                             sector-wide improvement in            sectors are Agribusiness, Cement
                             environmental performance,            Manufacturing, Colleges and
                             with greater efficiency of            Universities, Construction, Forest
                             program operations and                Products, Iron and Steel
                             reduce regulatory burden.             Manufacturing, Metal Foundries and
                                                                   Die Casting, Metal Finishing, Paints
                                                                   and Coatings, Ports, Shipbuilding
                                                                   and Ship Repair, and
                                                                   Specialty-Batch Chemical
                                                                   Manufacturing.
National Partnership         To encourage, through                 Fourteen members are in the                1 Year
for Environmental            recognition, networking, and          partnership program including
Priorities                   case example distribution,            Dupont, U.S. Steel, and Toyota.
                             minimizing hazardous and              Membership is by individual plant
                             industrial wastes, particularly       within the company as specified in
                             those waste streams                   the company's waste minimization
                             containing one or more of the         goals application.
                             30 priority chemicals.
Source: Information provided by US EPA, Office of Policy, Economics and Innovation




                                                                     23
                                                                                              Appendix B


              Examples of EPA Voluntary Programs
       Voluntary Programs Operated by EPA Headquarters Offices
Office Air and Radiation (OAR)
            OAR              AgStar
            OAR              Best Workplaces for Commuters
            OAR              Clean School Bus USA
            OAR              Climate Leaders
            OAR              Coalbed Methane Outreach Program (CMOP)
            OAR              Combined Heat and Power Partnership
            OAR              Diesel Retrofit Program
            OAR              Energy Star Energy Management
            OAR              Energy Star Product Certification
            OAR              Green Power Partnership
            OAR              HFC 23 Emission Reduction Program
            OAR              IAQ "Tools for Schools"
            OAR              Landfill Methane Outreach Program
            OAR              Mobile Air Conditioning Climate Protection
            OAR              Natural Gas Star
            OAR              PFC Emission Reduction Partnerships
            OAR              SF-6 Emission Reduction Partnership for Electric Power Systems
            OAR              SF-6 Emission Reduction Partnership for the Magnesium Industry
            OAR              Smart Way Transport
            OAR              The SunWise School Program
            OAR              Voluntary Aluminum Industrial Partnership

Office Prevention, Pesticides and Toxic Substances (OPPTS)
           OPPTS*            Design for the Environment
           OPPTS*            Green Chemistry
           OPPTS*            Green Engineering
           OPPTS             Green Suppliers Network
           OPPTS             High Production Volume Challenge
           OPPTS             Hospitals for a Healthy Environment
           OPPTS             Pesticide Environmental Stewardship Program
           OPPTS             Reduced Risk for Conventional Pesticides
           OPPTS             Suppliers Partnership
           OPPTS             Sustainable Futures
           OPPTS             Voluntary Children’s Chemical Evaluation Program

Office of Policy, Economics and Innovation (OPEI)
            OPEI             National Award for Smart Growth Achievement
            OPEI*            Performance Track
            OPEI*            Sector Strategies

Office of Research and Development (ORD)
            ORD              Environmental Technology Verification Program




                                                   24
Office of Solid Waste and Emergency Response (OSWER)
               OSWER                      Carpet America Recovery Effort
               OSWER                      Coal Combustion Products Partnership (C2P2)
               OSWER                      GreenScapes
               OSWER*                     National Partnership for Environmental Priorities (called National Waste Minimization
                                          Partnership until April 04)
               OSWER                      Plug-In To e-Cycling
               OSWER                      Waste Wise

Office of Water (OW)
                  OW                      Adopt your Watershed
                  OW                      CAFO Transformation to Animal Feeding Operations
                  OW                      Clean Water Act Recognition Awards
                  OW                      Decentralized Waste Water Systems
                  OW                      EPA's Beach Act program
                  OW                      EPA's Volunteer Monitoring Program
                  OW                      Five-Star Restoration Program
                  OW                      Golf and the Environment
  * Indicates Six Examples of EPA Voluntary Programs Included in Strategic Goal 5
Source: December 2003 Agency-wide voluntary program survey, US EPA, Office of Policy, Economics and Innovation




               Voluntary Programs Operated by EPA Regional Offices
Region 1 - Regional Programs
          Region 1              Clean Marine Engine Initiative
          Region 1              Clean New England Beach Initiative
          Region 1              College and University Integrated Strategy
          Region 1              Corporate Sponsorship program for Metal Finishes
          Region 1              Corporate Wetlands Restoration Partnership (CWRP)
          Region 1              Dept. of Public Works Integrated Strategy
          Region 1              Urban Environmental Program

Region 2 - Regional Programs
          Region 2              Lead in Drinking Water in Schools and Non-Residential Buildings, Children's Initiative.
          Region 2              New York Harbor Private Ferry Emissions Reductions Program

Region 3 - Regional Programs
          Region 3              Businesses for the Bay (B4B)
          Region 3              Green Communities
          Region 3              Lead Free Drinking Water in Schools and Day Care

Region 5 - Regional Programs
          Region 5              Binational Toxics Strategy
          Region 5              DOD/State/EPA P2 Partnerships
          Region 5              Greater Chicago Pollution Prevention Alliance
          Region 5              Natural Landscaping Workgroup
          Region 5              PCB Phasedown Programs
          Region 5              Voluntary Chlor-alkali Industry Mercury Program

Region 6 - Regional Programs
          Region 6              Gulf of Mexico Program
          Region 6              Healthy Environments and Living Places for Kids (HELP for Kids)
          Region 6              Integrated Pest Management in Schools with Texas

Region 9 - Regional Programs
          Region 9              R9 Heathy Schools Initiative
          Region 9              Voluntary Mercury Air Emission Reduction Program with Nevada Gold Mines
Source: December 2003 Agency-wide voluntary program survey, US EPA, Office of Policy, Economics and Innovation



                                                                    25
                                                                                              Appendix C


         List of Selected Stakeholders We Interviewed
                                    Organization                                    Organization Type

League of Women Voters, Texas Pollution Prevention Advisory Committee             Non-Profit / Community

Sierra Club Lone Star Chapter                                                     Non-Profit / Community

International City/County Management Association (ICMA)                           Non-Profit / Community

National Association of Counties (NACo)                                           Non-Profit / Community

Northeast Waste Management Officials Association (NEWMOA)                         Non-Profit / Community

Alliance for Environmental Innovation                                             Non-Profit / Community

San Francisco State University Business School                                    Non-Profit / Community

California Council for Economic and Environmental Balance                         Non-Profit / Community

Lodi-Woodbridge Winegrape Commission                                              Non-Profit / Community

Sustainable Conservation                                                          Non-Profit / Community

California Environmental Dialogue                                                 Non-Profit / Community

Texas Instruments Corporation, Texas Pollution Prevention Advisory Committee      Industry

Fort Worth-Dallas Small Business Advisory Committee                               Industry Association

Texas Association of Business                                                     Industry Association

California Association of Winegrape Growers                                       Industry Association

Hewlett Packard Corporation                                                       Industry

Small Business and Environmental Assistance Office, Texas Commission on           State/Local Government
Environmental Quality

Pollution Prevention and EMS Section, Texas Commission on Environmental Quality   State/Local Government

Small Business/Local Government Assistance Program, Texas Commission on           State/Local Government
Environmental Quality

Clean Texas Program, Texas Commission on Environmental Quality                    State/Local Government

Border Programs Office, Texas Commission on Environmental Quality                 State/Local Government

Massachusetts Department of Environmental Protection (MADEP)                      State/Local Government

Massachusetts Executive Office of Environmental Affairs                           State/Local Government

Office of Sustainability Programs, California EPA                                 State/Local Government

Department of Pesticide Regulation, California EPA                                State/Local Government

California EMS Implementation Group                                               State/Local Government

City of San Francisco Environment Office                                          State/Local Government
                                                          26
US EPA, Office of Prevention, Pesticides and Toxic Substances   Federal Government

US EPA, Office of the Chief Financial Officer                   Federal Government

US EPA, Office of Policy, Economics, and Innovation             Federal Government

US EPA, Region 6, Dallas, Texas.                                Federal Government

US EPA, Office of Tribes                                        Federal Government

US EPA, Region 1, Boston, Massachusetts                         Federal Government

US EPA, Region 9, San Francisco, California                     Federal Government




                                                        27
                                                                                     Appendix D


  Agency Comments to the Draft Report and OIG Evaluation


MEMORANDUM


SUBJECT:	      Review of Draft Evaluation Report: "Ongoing Management Improvements and
               Further Evaluation Vital to EPA Stewardship and Voluntary Programs,"
               (Assignment No. 2003-0001451)

FROM:	         Stephanie Daigle /s/
               Acting Associate Administrator for Policy, Economics and Innovation

TO:	           Kwai Chan
               Assistant Inspector General for Program Evaluation


        Thank you for the opportunity to review your draft report, "Ongoing Management
Improvements and Further Evaluation Vital to EPA Stewardship and Voluntary Programs,"
(Assignment No. 2003-0001451). I am responding on behalf of the agency and specifically for
the three parties to whom you addressed your transmittal memo of January 21, 2005: Deputy
(now Acting) Administrator Stephen Johnson, Acting Assistant Administrator Susan Hazen and
(then) Associate Administrator Jessica Furey.

        In your report you reviewed some of EPA’s recent efforts to encourage environmental
stewardship, examining our goals and our management of voluntary programs, as well as some
state efforts. You had several general recommendations for how EPA might improve in this area.
We understand that this report is the first of what might be several reports on the topic of
environmental stewardship, as you continue your work in the months ahead.

        We are pleased to say that we generally agree with the findings and recommendations in
this draft report. We think that you have picked a topic that is timely and that your evaluation
can help us as we develop new approaches for carrying out EPA’s mission. We are also pleased
that you have included some representative state efforts in your evaluation. We have only a
modest number of specific comments on aspects of your report, and we have attached them to
this memo.

        Of particular interest to you in this regard and as we have discussed with your staff, we
are currently beginning a new effort at the direction of Acting Administrator Johnson to
determine how we can best encourage environmental stewardship. We accept your report as
helpful input to this effort. Our Innovation Action Council (IAC) will be discussing this topic at
                                                28
its February 23-24 meeting. We have invited your staff to attend this meeting and look forward
to such comments on your report as your IAC representative (Rick Linthurst) would like to
make.

        To allow this discussion of your report to take place, we are sending you this expedited
response today in order to accept your staff’s offer to finalize the report before February 23. We
trust that our favorable response and the limited number of specific comments will make this
possible.

        More importantly, we look forward to working cooperatively with you and your staff as
we both endeavor to improve how the agency encourages the best environmental stewardship
possible. Please do not hesitate to contact me, the other addressees of your memo and/or our
respective staffs if we can help you in this process.




                                                29
                                                                                 Appendix E

                                     Distribution

EPA Headquarters

Office of the Administrator
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Assistant Administrator for Prevention, Pesticides and Toxic Substances
Acting Associate Administrator for Policy, Economics, and Innovation
Audit Follow-up Coordinator, Prevention, Pesticides and Toxic Substances
Audit Follow-up Coordinator, Office of Policy, Economics, and Innovation


Office of Inspector General

Inspector General
Assistant Inspector General for Program Evaluation
Assistant Inspector General for Audit
Assistant Inspector General for Human Capital
Assistant Inspector General for Planning, Analysis, and Results
Assistant Inspector General for Congressional and Public Liaison
Counsel
Science Advisor
Product Line Directors
Editor
Human Resource-Center Managers




                                              30
